Audit of Consortium of Universities for the
 Advancement of Hydrologic Science, Inc.




       National Science Foundation
       Office of Inspector General




               OIG 06-1-015
             September 1, 2006
               FOR OFFICIAL USE ONLY

            REPORT RELEASE RESTRICTION

THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE
THE NATIONAL SCIENCE FOUNDATION WITHOUT ADVANCE
APPROVAL BY THE NSF OFFICE OF INSPECTOR GENERAL. THE
ONLY EXCEPTION IS AN AGENCY INVOLVED IN NEGOTIATING
OR ADMINISTERING NSF AWARDS. THE INFORMATION IN THIS
REPORT SHOULD BE TREATED AS CONFIDENTIAL AND MAY
NOT BE USED FOR PURPOSES OTHER THAN ORIGINALLY
INTENDED WITHOUT PRIOR CONCURRENCE FROM THE NSF
OFFICE OF INSPECTOR GENERAL.
                        TABLE OF CONTENTS

INTRODUCTION

    Background                                                 1

    Objectives, Scope, and Methodology                         3


FINDINGS AND RECOMMENDATIONS

    CUAHSI Needs To Improve Its Accounting of Federal Awards   4

SCHEDULES

    Schedule A:   Schedule of Incurred Costs for NSF Award     14
                  No. EAR-0233842

    Schedule B:   Schedule of Incurred Costs for NSF Award     15
                  No. EAR-0326064

    Schedule C:   Schedule of Incurred Costs for NSF Award     16
                  No. EAR-0412975

APPENDICES

    Appendix 1:   Questioned Fringe Costs                      17

    Appendix 2:   List of Questioned Transactions              19

    Appendix 3:   List of Unsupported Transactions             23

    Appendix 4:   CUAHSI Response                              24
                              ACRONYMS

AGU      American Geophysical Union
CUAHSI   Consortium of Universities for the Advancement of Hydrologic Science,
         Inc.
DGA      NSF’s Division of Grants and Agreements
DIAS     NSF’s Division of Institution and Award Support
FY       Fiscal Year
OMB      U.S. Office of Management and Budget
                                             INTRODUCTION
BACKGROUND

The Consortium of Universities for the Advancement of Hydrologic Science, Inc. (CUAHSI),
located in Washington, D.C., fosters advancements in the hydrologic sciences, which includes
the study of the properties, distribution, and effects of water on the earth's surface and in the
atmosphere. CUAHSI was incorporated in Washington, D.C. in June 2001 as a non-profit
organization after initially being part of the American Geophysical Union (AGU). Consortium
members, which include more than one hundred universities as well as research institutions and
other not-for-profit organizations both in the United States and abroad engaged in hydrologic
science, are charged a fee (universities pay $2,000 and affiliates $500) to join. Excluding the
membership fees, the three NSF awards shown below have been CUAHSI's sole source of
funding.

                        Cumulative Award Amounts as of December 31, 2004

    NSF Award                      Award Title                          Award Period               Award
                                                                                                   Amount
EAR-0233842           Infrastructure for the
                      Advancement of Hydrologic                         6/2002 - 5/2005            $608,441
                      Science (Planning award)
EAR-0326064           A Community-based Consortium
                      for the Advancement of                            8/2003 - 7/2005           $2,246,310
                      Hydrologic Science (Core award)
EAR-0412975           COLLABORATIVE
                      RESEARCH: Development of
                                                                        4/2004 - 3/2005             $64,000
                      Informatics Infrastructure for the
                      Hydrologic Sciences (HIS award)

NSF awarded AGU funds to support CUAHSI's development on September 1, 2001. Nine
months later, NSF transferred the grant to CUAHSI as award EAR-0233842 (referred to as the
Planning award) primarily as support in establishing a research infrastructure for the study of
hydrology.1 AGU continued to maintain the books and records for CUAHSI until January 1,
2003.

NSF provided a second award in August 2003, EAR-0326064 (the Core award), to continue
supporting CUAHSI’s development of a hydrology infrastructure.2 CUAHSI's third NSF

1
  The Planning award was focused on three main areas: a) establishing long term hydrologic observatories,
b) developing a hydrologic information system to support the data, information, and analysis requirements of the
community, and c) developing and operating state-of-the-art systems and providing support services for hydrologic
research.
2
  The Core award funds three areas: a) development of a prototypical design of a single hydrologic observatory,
b) initiation of a hydrologic synthesis facility, where hydrologists can meet to tackle central problems in the field,
and c) fund a headquarters support staff. This is a five-year continuing grant scheduled to end in 2007 at a total
budget of $5,886,310.


                                                           1
award, EAR-0412975 (the HIS award), is to oversee the coordination of four universities working
on an NSF project to develop informatics infrastructure for the hydrologic sciences.3

CUAHSI rents office space and obtains human resources, payroll, and computer services from
AGU. During our audit, CUAHSI staff consisted of an executive director, a business manager,
and a communications manager.

NSF’s Division of Grants and Agreements (DGA) has been closely monitoring CUAHSI since
the consortium took over accounting responsibilities from AGU in 2003. Citing concerns about
its operations and accounting policies, DGA put CUAHSI on special payments beginning in
August 2003. 4 In a site visit three months later, DGA concluded that CUAHSI’s accounting
was still not adequate and noted several additional problems. This audit, evaluating the
adequacy of CUAHSI’s accounting for NSF award expenditures, was performed at the DGA's
request.




3
 This is a two-year continuing grant scheduled to end in 2006 with one additional increment of $69,500.
4
 With “special payments” CUAHSI submits SF-270s, Requests for Advance or Reimbursement, which requires a
detailed breakdown of each cost being claimed and cannot utilize electronic reimbursement methods.


                                                    2
OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to evaluate whether:

1. CUAHSI costs charged on NSF awards for the period July 1, 2002 through December 31,
   2004 were allowable, allocable, and reasonable in accordance with Federal cost principles
   and NSF award terms and conditions; and,

2. CUAHSI’s system of internal controls was adequate to properly manage, account for, and
   monitor its NSF award funds in accordance with Office of Management and Budget (OMB)
   and NSF award requirements.

To accomplish these objectives, we:
   • reviewed the NSF award jackets,
   • discussed issues with NSF personnel in DGA and the Directorate of Geosciences,
       Division of Earth Sciences,
   • reviewed CUAHSI's implementation of administrative and financial policies to account
       for and safeguard NSF award funds,
   • interviewed CUAHSI staff and tested processes in place to administer and monitor NSF
       award funds to determine compliance with Federal and NSF award requirements, and
   • verified that expenditures in CUAHSI’s accounting records and financial reports
       supported total award expenditures reported to NSF in its Federal Cash Transactions
       Report as of December 31, 2004.

During our audit, we reviewed over 90 percent of CUAHSI’s grant expenditures on its three NSF
grants. We conducted our audit in accordance with the Comptroller General’s Government Audit
Standards and included such tests of accounting records and other auditing procedures as we
considered necessary to fully address the audit objectives.




                                                 3
                         FINDINGS AND RECOMMENDATIONS
CUAHSI Needs to Improve Its Accounting of NSF Awards

CUAHSI did not have a financial management system that provided a complete accounting of its
NSF awards. Specifically, CUAHSI could not identify funds authorized, spent, or remaining on
an award-by-award basis and did not have a process to compare budgeted to actual costs.
CUAHSI lacked a qualified accountant and also did not ensure that its personnel were
knowledgeable of Federal government administrative requirements or cost principles. As a
result, CUAHSI overspent on the Planning award, overcharged NSF for the Core award, caused
NSF to delay funding a hydrologic project and had its payments restricted, both of which
increased NSF’s administrative burden. Furthermore, CUAHSI could not readily locate source
documents and claimed questionable costs of $69,978 on the Planning award and Core award.5

CUAHSI provided a written response to the draft report, in which it accepted $32,360 of the
questioned costs and agreed with all of our recommendations to improve internal controls over
NSF funds. We summarized CUAHSI’s response after each recommendation and provided
additional comments regarding CUAHSI’s response on the questioned costs. A copy of
CUAHSI’s response to the draft audit report is included in its entirety as Appendix 4 of this
report.6

Inadequate Accounting System

CUAHSI's accounting system did not meet federal financial management system requirements.
OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-profit Organizations requires that an
awardee’s financial management system provide for “effective control over and accountability
for all funds, property, and other assets". Specifically, OMB Circular A-110 requires:

    •   Accurate, current and complete disclosure of the financial results of each federally-
        sponsored project or program,

    •   Accounting records that identify adequately the source and application of funds for
        federally-sponsored activities. In part, these records should show the total funds
        authorized to be spent, funds already spent or set aside, remaining funds left to be spent,
        and a complete list of expenses by award; and

    •   Comparison of actual expenses to budget amounts for each award.

While CUAHSI's general ledger did account for various types of expenses such as travel or
salaries it did not keep track of funds authorized or remaining on an award-by-award basis. As

5
  See Schedules A and B for claimed and questionable costs on the Planning and Core awards, respectively. The
questionable costs on the Planning award have been adjusted from $53,442 to reflect additional information
provided by CUAHSI as part of its response to the draft audit report.
6
  The attachments referenced in CUAHSI’s response letter are included in our workpapers and available from the
OIG.


                                                        4
such, at any moment in time, CUAHSI did not know the total costs incurred to date on an
individual award or the available balance of unspent funds. Furthermore, CUAHSI did not have
a process to readily compare actual expenses incurred to amounts budgeted in its award letters.
For example, to meet our request for a schedule of budgeted to actual costs, CUAHSI had to
manually enter amounts into a spreadsheet from its general ledgers for 2002, 2003 and 2004.

CUAHSI was aware of these weaknesses in its accounting system as it had been previously cited
in its OMB Circular A-133 audit management letter. Specifically, the A-133 auditor reported,
“the current accounting system does not adequately account for costs by project” and included a
recommendation that CUAHSI purchase a system that accounts for expenditures by award or
project.7 The auditor's letter also stated, “the accounting function is not currently performed by
adequately trained staff.” Furthermore, DGA notified CUAHSI in July 2003 and December
2003 that its accounting policies and procedures were insufficient because it did not provide for
compliance with OMB’s standards for financial management systems.

Lack of Qualified and Adequately Trained Personnel

In taking over its accounting from AGU at the beginning of 2003, CUAHSI did not employ
qualified personnel to perform accounting functions or ensure its employees were knowledgeable
of the federal grant requirements in OMB Circular A-110 or OMB Circular A-122, Cost
Principles for Non-Profit Organizations, which contains the rules awardees agree to follow
regarding allowability, allocability, and reasonableness of costs. Specifically:

    •   CUAHSI management did not hire a qualified accountant to perform its accounting
        functions. Instead, when CUAHSI assumed accounting responsibilities from AGU in
        early 2003, it assigned accounting responsibilities to the business manager who did not
        have a formal accounting education and federal grant experience. The business manager
        was therefore ill prepared to keep accounting records, let alone ensure that CUAHSI
        complied with federal grant requirements and cost principles. Further, the accountant’s
        supervisor, the executive director, while well-versed in the programmatic responsibilities
        of the awards in his charge also did not completely understand the administrative
        requirements or cost principles.

    •   In July 2003, DGA notified CUAHSI that it needed policies and procedures for
        accounting and operations that complied with OMB Circular A-110 requirements.
        CUAHSI responded in writing to DGA in August 2003 but its response did not
        adequately address DGA’s concerns. Specifically, CUASHI provided its Accounting and
        Operational Policies and Procedures, which references the accounting software it used
        but CUASHI did not address how these policies and procedures met the financial
        management standards in OMB Circular A-110, including whether it would account for
        each award by separate project accounts. CUAHSI’s inadequate response is indicative of
        its overall lack of understanding of OMB administrative requirements.



7
 The letter was dated June 30, 2004; however CUAHSI management stated that it didn’t receive it until December
2004.


                                                       5
NSF Awards Mismanaged and Administrative Burden Increased for NSF

Without an adequate grants accounting system or adequately trained personnel, CUAHSI could
not effectively manage its NSF awards. Specifically, its inability to track award funds
authorized, expended, and remaining resulted in CUAHSI over running the budgeted costs
approved for the Planning award by $6,050 (see Schedule A) and claiming $6,647 more costs on
the Core award than incurred per its general ledger (see Schedule B).8 Also, because CUAHSI
did not have a process to routinely compare actual expenses to approved budgeted amounts, it
had significant cost overruns on some budget categories. For example, on the Planning award,
CUAHSI had an approved budget for subawards of $163,185 but it incurred actual expenses of
$224,084. Although the overrun in this instance did not appear to affect completion of the
award, continued cost overruns due to the inability to track fund balances could jeopardize
success on future awards. As a small business almost exclusively funded by NSF awards, there
is a heightened concern that CUAHSI may not fulfill its grant objectives if it exceeds total
approved grant funds or significantly overruns budget categories.

In addition, CUAHSI's insufficient financial management system resulted in NSF delaying the
start of a project for seven months and incurring additional administrative work to oversee
CUAHSI’s grant activities. Specifically, the NSF Division of Earth Sciences delayed issuance of
EAR-0336749, Development of Informatics Infrastructure for the Hydrologic Sciences to allow
CUAHSI an opportunity to fix its accounting problems. CUAHSI eventually withdrew its
proposal six months later, as DGA had not found sufficient improvement in CUAHSI’s
accounting system. The following month, NSF commenced the project by awarding the work to
four universities (University of Texas, Drexel University, University of California-San Diego,
and University of Illinois). CUAHSI received only a small NSF award (the HIS award) for
project coordination.

Also, DGA placed CUAHSI on special payments in August 2003, as a result of its concerns that
CUAHSI was submitting costs for reimbursement without adequate project ledgers or source
documentation. With special payments, CUAHSI cannot utilize electronic reimbursement
methods to receive its NSF award funds, but rather must submit a SF-270, Request for Advance
or Reimbursement, which requires a detailed breakdown of each cost being claimed. Special
payments also require that DGA review these submissions for adequacy and manually approve
them for payment, thus incurring additional administrative costs. CUAHSI remains on special
payments because it has yet to demonstrate that it has corrected its grants accounting system
deficiencies.

Source Documentation not Readily Available to Support Costs

OMB Circular A-110 requires an awardee to have “Accounting records including cost
accounting records that are supported by source documentation.” However, CUAHSI did not
have a systematic process that readily identified source documents supporting award costs in the
project ledgers. We tested 589 transactions totaling $1.44 million (or 94 percent of claimed
costs) and found that source documents were not annotated with project accounts or other

8
 CUAHSI claimed $6,647 of excess costs by claiming $916,433 on Federal Cash Transactions Report as of
December 31, 2004, but CUAHSI’s general ledgers supported only $909,786.


                                                      6
information identifying the corresponding NSF award where the costs were charged. Instead
CUAHSI relied on the memory of the business manager to correctly recall which source
documents supported specific award costs. Although CUAHSI eventually provided source
documentation for all but three transactions, it required repeated written requests from our office,
significant time to educate the business manager as to what were acceptable source documents,
and up to six months for the awardee to provide the requested support.9

Because CUAHSI did not adequately track supporting documentation for its claimed costs,
   • A $575 charge for travel was claimed on both the Planning and Core awards (we
      questioned the amount claimed on the Core Award, see Schedule B);
   • Two participant support transactions were claimed twice on the Core award, one for $517
      and the other for $975 (see Schedule B); and
   • CUAHSI did not provide documentation for three transactions totaling $5,253 (see
      Schedule A).

CUAHSI Claimed Questionable Costs on Two NSF Awards

OMB Circular A-110 requires that awardees have written procedures for determining the
reasonableness, allocability, and allowability of costs. The business manager, who did not have
the requisite knowledge of federal cost principles in OMB Circular A-122, informally reviewed
CUAHSI expenditures for allowability. CUAHSI's unfamiliarity with federal cost principles and
the lack of any internal implementing guidance resulted in questioned costs and the other grant
accounting weaknesses identified.

In addition to the overcharge on the Core grant and the questionable costs resulting from lack of
source documents noted above, CUAHSI claimed costs of $56,010 on the Planning award
(Schedule A) and the Core Award (Schedule B) contrary to the cost principles listed in OMB
Circular A-122. Specifically,

    •    OMB Circular A-122 states that housing and personal living expenses paid to directors
         are allowable only if the federal awarding agency approves it as a direct cost.10 Without
         NSF approval, CUAHSI claimed housing allowance and living expense costs of
         $24,80011 for its Executive Director to travel between its office in Washington, D.C. and
         his home in Boston, Massachusetts. DGA notified CUAHSI that these costs were not

9
  We formally requested support for these transactions on three occasions. The first was in October 2005, when we
provided our complete list of 589 transactions for testing and the last time was in March 2006. After initial
fieldwork was completed in December 2005, CUAHSI could not locate source documents for over 50 transactions.
Over a six month period, only through numerous meetings, including sitting down with the business manager and
explaining what source documentation was needed to support the claimed costs, was CUAHSI able to find the
documentation to support all but five of the tested transactions. Lastly, CUAHSI provided support for two of the
five transactions in its response to the draft report.
10
   Specifically the OMB circular states, “Costs of housing (e.g., depreciation, maintenance, utilities, furnishings,
rent, etc.), housing allowances and personal living expenses for/of the organization's officers are unallowable as
fringe benefit or indirect costs regardless of whether the cost is reported as taxable income to the employees. These
costs are allowable as direct costs…when approved by awarding agencies.”
11
   Of this amount $7,360 was claimed on the Planning award ($2,400 was charged as salary and $4,960 as fringe
benefits (see Schedule A) and the remaining $17,440 claimed as salary on the Core award (see Schedule B).


                                                          7
           allowable in a letter dated June 23, 2003. Although CUAHSI stopped claiming
           additional housing and personal living expenses, the $24,800 of questionable costs
           remains unresolved. CUAHSI attempted to address this problem by crediting a portion of
           the housing allowances claimed ($6,240) back to NSF in November 2003. However, the
           credit was insufficient and it re-claimed the $6,240 as salary in December 2003 on an
           NSF award, which is unallowable per OMB Circular A-122.

       •   OMB Circular A-122 specifies that fringe benefits are allowable, provided such benefits
           are granted in accordance with established written organization policies. CUAHSI over-
           claimed fringe benefit costs of $21,69812 because AGU, who was responsible for
           processing CUAHSI’s payroll, calculated the amount using its own estimated fringe rate,
           as opposed to one based on CUAHSI’s financial information. Furthermore, estimated
           fringe benefit costs were not reconciled to actual cost at fiscal year end. AGU attempted
           to rectify the fringe benefit overcharges with a credit, however, the amount was
           insufficient and CUAHSI applied the entire credit to the Core award, instead of correctly
           allocating some of the credit to the Planning award.

       •   OMB Circular A-122 states that foreign travel must be approved by federal agencies.
           While NSF waives this requirement in its General Grant Conditions, it requires that
           awardees use U.S. flag air carriers. Costs incurred in using non-U.S. flag air carriers are
           only allowed in certain specific circumstances, such as if the use of U.S. flag air carriers
           would result in significant delays in flight times. Without providing any justification,
           CUAHSI reimbursed airfare for participants on a foreign flag carrier totaling $3,084 on
           the Planning award and $1,600 on the Core award. The CUAHSI Executive Director
           incurred an additional $357 of travel costs without justifying the need to use a foreign
           flag carrier.

       •   OMB Circular A-122 states that for a cost to be allowable it must be reasonable, not
           included as a cost on another award, and adequately documented. On the Core award,
           CUAHSI claimed a $4,000 credit card payment that was likely related to transactions
           already claimed on NSF awards. In addition, CUAHSI claimed participant support costs
           of $363 and $108 on the Core award for payments it made to two participants, even
           though the costs had already been reimbursed by another organization and the
           participants explicitly did not request reimbursement from CUAHSI for these costs.

Recommendations:

Recommendation 1: We recommend that the Directors for NSF’s Division of Institution and
Award Support (DIAS) and DGA ensure that CUAHSI have an accounting system that meets the
financial management standards as outlined in OMB Circular A-110. Specifically the
accounting system should be capable of:




12
     See Appendix 1 for the detailed computation of the questioned fringe costs.


                                                            8
   •   Providing accurate, current and complete disclosure of the financial results of each
       federally-sponsored project or program including a project ledger identifying detailed
       award expenses by individual award;

   •   Accounting for source and application of funds for federally-sponsored activities (the
       accounting system should be able to identify total funds authorized to be spent by award,
       funds already spent or set aside, and remaining funds left to be spent); and

   •   Facilitating comparisons of actual expenses to budget amounts for each award.

       Auditee’s Response

       The auditee agreed with the recommendation. CUAHSI stated that it replaced the
       accounting system that was in place during FY’s 2003 and 2004 with a new system in
       January 2005. They attached sample reports from the system as evidence of its adequacy.

       Auditor’s Comments

       We did not assess the capabilities of the new accounting system for adequacy, but believe
       this was a necessary step to help CUAHSI address its accounting system deficiencies.
       We recommend that DIAS and DGA verify the new system meets the OMB Circular A-
       110 requirements.

Recommendation 2: We recommend that the Directors for DIAS and DGA require CUAHSI to
hire an experienced accountant or obtain accounting services to ensure adequate accounting of its
federal expenditures.

       Auditee’s Response

       The auditee agreed with the recommendation. Specifically, CUAHSI hired an
       experienced CPA on a contract basis in 2005, a full-time Controller in February 2006,
       and a full-time Administrative Assistant in June 2006 to address this recommendation.

       Auditor’s Comments

       CUAHSI’s actions in hiring these individuals appear to adequately address the
       recommendation. We met with the part-time CPA and the new Controller during the
       course of the fieldwork and in coordinating the report and they were able to provide us
       with valuable assistance.

Recommendation 3: We recommend that the Directors for DIAS and DGA resolve the
questionable costs:

   •   over-claimed costs of $6,647 on the Core award;




                                               9
     •   duplicate claimed charges of $575 for travel and $1,492 for participant support on the
         Core award and the unsupported costs of $5,25313 on the Planning award; and
     •   questionable costs of $56,01014 consisting of housing allowances, fringe benefits, airfare,
         and other unreasonable claimed costs.

         Auditee’s Response

         The auditee agreed with the recommendations overall. However, CUAHSI provided
         additional explanations in an attempt to counter some of the questioned costs.
         Specifically,
            • Over-claimed costs of $6,647 on the Core Award - CUAHSI claims that this
                amount includes the cost overrun of $6,050 on the Planning award. Further, they
                state that they had “verbal authorization” to move the Planning award overrun to
                the Core award. Therefore, they request this matter be settled in their favor.
            • Duplicate charges of $575 and $1,492 - CUAHSI provided a list of several points
                they believe support their request that these questioned costs be resolved in its
                favor. In summary, CUAHSI believes that because the “cash in” from NSF
                matched the “cash out” that duplicate payments were not possible. Of note, they
                make reference to a cash reconciliation our office completed that showed the
                Federal cash provided to CUAHSI agreed with the cash out as shown on
                CUAHSI’s bank statements. Lastly, they verified the invoices in question were
                only paid once.
            • Unsupported costs of $5,253 - CUAHSI attached supporting documentation from
                AGU for the amounts of $1,539, $3,094, and $1,094 leaving two transactions, for
                $850 and $1,309, still unsupported.
            • Concerning the questionable costs of $56,010, CUAHSI noted the following
                     o Questionable housing allowance of $24,800 – CUAHSI believes this
                        amount should be resolved in its favor. They mention prior discussions
                        regarding this issue with several NSF employees at the time the new
                        Executive Director was hired. In summary, CUAHSI believes that the
                        housing allowance is permissible for temporary employees and that the
                        Executive Director was a temporary employee during all of calendar year
                        2003. They attached some documentation as well in support of this
                        argument. CUAHSI also believes the questioned amount of $24,800
                        should be lowered by $6,240 to take into account a credit it made.
                     o Questioned fringe costs of $21,698 – CUAHSI concurred with the basis of
                        the questioned costs but believes the amount should be $20,688.
                     o Airfare of $2,009 in excess of coach class – CUAHSI provided
                        documentation showing the airfares in question were coach class and
                        requested that these costs be resolved in its favor.
                     o They concurred with the remaining questionable costs of $3,084, $1,600,
                        $357, $363, $108, and $4,000.

13
   The amount of unsupported costs in the draft report was $7,886, but was adjusted based on information provided
by CUAHSI in its response letter.
14
   The questionable amount in the draft report was $58,019, but was adjusted based on information provided by
CUAHSI in its response letter.


                                                       10
        Auditor’s Comments

        Our responses to each of CUAHSI’s comments for this recommendation are shown
        below:

             •   CUAHSI’s response provided no evidence to support its claim that the over-
                 claimed costs of $6,647 on the Core Award includes the cost overrun of $6,050 on
                 the Planning award. Additionally, CUAHSI provided no evidence to support its
                 assertion that it had “verbal authorization” to move the Planning award overrun to
                 the Core award. We did speak with the NSF program manager and he remembers
                 discussions about some vision papers being charged to the Core grant, but he
                 didn’t recall any discussions about transferring grant amounts between awards.
                 Therefore, we reaffirm our recommendation as there was no formal transfer of
                 funds from one grant to another or any documentation supporting that there was
                 “verbal” approval to shift funds. At most the evidence CUAHSI provided shows
                 that the program manager agreed that Core grant funds could be used for some of
                 the vision papers, not to transfer funds from the Planning to the Core grant.
             •   With respect to the duplicate charges of $575 and $1,492, we disagree with
                 CUAHSI’s argument that because its cash account reconciles it could not have
                 claimed costs more than once. Our audit of CUAHSI’s general ledger clearly
                 showed that CUAHSI claimed these two invoices twice.15 Therefore, we reiterate
                 our recommendation that these costs be reimbursed to NSF.
             •   With respect to the unsupported costs of $5,253, the support CUAHSI attached
                 from AGU for the unsupported amounts of $1,539 and $1,094 was adequate and
                 we removed them from the report.16 However, the invoice attached for the
                 amount of $3,094 was an AT&T bill to AGU and did not show any evidence that
                 it was a CUAHSI expense and is therefore still considered unsupported. Lastly,
                 the transactions for $850 and $1,309 are also still unsupported.
             •   Our remarks concerning CUAHSI’s comments related to the questionable costs of
                 $56,010 are noted below:

                      o Questionable housing allowance of $24,800 –we disagree with CUAHSI’s
                        contention that this amount should be resolved in its favor. Even though
                        CUAHSI discussed the subject of housing allowances with NSF
                        personnel, CUAHSI never obtained formal approval from NSF for
                        payment of these costs. Also, CUAHSI’s argument that housing costs for
                        temporary employees is allowable is not supported by OMB Circular
                        A-122, which does not distinguish between permanent and temporary
                        employees with respect to the allowability of housing costs for officers of
                        a non-profit organization. Lastly, as we explained in the body of the

15
   . We did not say that CUAHSI paid the invoices twice just that they inadvertently claimed them twice, which is
clearly shown in general ledgers we audited. Therefore the extra cash reimbursed for these invoices should be in
CUAHSI’s bank account
16
    We removed the documentation supporting these costs from CUAHSI’s response since we accepted them as
adequate audit evidence.


                                                        11
                    report, we questioned the “credit” of $6,240 because even though
                    CUAHSI credited this amount in its fringe account in November 2003,
                    they re-claimed the same costs as salary in the following month, which is
                    not allowable according to OMB Circular A-122.
                  o Questioned fringe costs of $21,698 – CUAHSI’s disagreement with
                    $1,010 of the questioned amount does not address the fact that the
                    questioned fringe costs of $21,698 was based on CUAHSI’s own general
                    ledgers. In short, the difference occurred because CUAHSI
                    inadvertently claimed the additional $1,010 on its general ledger as part of
                    fringe benefits costs and then charged the extra costs to NSF. AGU’s
                    original invoice for the fringe benefits included the $1,010, but while
                    AGU submitted a corrected invoice later, CUAHSI did not reduce the
                    amount in its general ledger. See Appendix 1 for more explanation. If
                    CUAHSI has subsequently corrected its general ledgers for FY 2003 and
                    2004 this should be presented during audit resolution for DGA’s
                    consideration.
                  o Airfare of $2,009 in excess of coach class – The documentation CUAHSI
                    provided supported its contention that these airfares were coach class.
                    Therefore we revised the report to remove these amounts from the
                    questioned costs.
                  o We recognize CUAHSI’s concurrence with the remaining questioned costs
                    of $3,084, $1,600, $357, $363, $108, and $4,000.

Recommendation 4: We recommend that the Directors for DIAS and DGA keep CUAHSI on
special payments until it implements a corrective action plan to address the recommendations of
this audit.

       Auditee’s Response

       The auditee agreed with the recommendation.

Recommendation 5: We recommend that the Directors for DIAS and DGA require CUAHSI to
have an accounting system that references specific source documentation with project accounts.

       Auditee’s Response

       The auditee agreed with the recommendation and attached sample reports to shown that it
       has addressed the recommendation.

       Auditor’s Comments

       We did not review the new accounting system, but the reports CUAHSI attached showed
       a clear place for referencing a source document that, if properly used, will improve
       CUAHSI’s internal controls over NSF awards.




                                              12
Recommendation 6: We recommend that the Directors for DIAS and DGA require CUAHSI to
establish an adequate filing system that ensures supporting documentation is readily available to
support award expenditures.

       Auditee’s Response

       The auditee agreed with the recommendation and claims that its new system adequately
       addresses this recommendation.

       Auditor’s Comments

       We did not verify CUAHSI’s claim, but it appears that CUAHSI is being responsive to
       our recommendation.

Recommendation 7: We recommend that the Directors for DIAS and DGA require CUAHSI to
establish a documented process for identifying and excluding unallowable costs from NSF
awards.

       Auditee’s Response

       The auditee agreed with the recommendation and explained that its personnel have now
       been trained in applicable Federal rules and regulations and added that they properly
       exclude unallowable costs.

       Auditor’s Comments

       CUAHSI’s response discusses a process for excluding unallowable costs but does not
       address whether it is documented as required by OMB Circular A-110. Therefore, we
       reaffirm our recommendation that CUAHSI develop written procedures for ensuring only
       allowable costs are charged to NSF awards.

Recommendation 8: We recommend that the Directors for DIAS and DGA require CUAHSI
personnel be trained in federal cost principles and administrative requirements.

       Auditee’s Response

       The auditee agreed with the recommendation and claims that its personnel have now been
       trained.

       Auditor’s Comments

       If accurate, CUAHSI’s actions sufficiently address the recommendation. Although, it is
       important that CUAHSI ensure its current personnel stay up to date with the training and
       any new employees receive this training as a matter of course.




                                               13
Schedule A
                                                    National Science Foundation Office of Inspector General
                                   CUAHSI (Consortium of Universities for the Advancement of Hydrologic Sciences, Inc)
          Review of Cost Claimed Under NSF Award EAR-0233842 (aka the Planning Award) for the period June 1, 2002 - December 31, 2004


                                                                                           Results of Audit
                                                                                                                        Unsupported     Audit
                                                                                                        Amount           Amount     Recommended
  Budget Category       Award Budget            Incurred Costs         Amount Tested        %          Questioned        (Note 1)      Amount              Notes
Salaries & Wages                $170,419                $159,222             $159,222           100%           $2,400                           $156,822     2
Fringe Benefits                    66,522                  72,230              72,230           100%           38,062                             34,168    3
Travel                            42,000                   25,995              24,255           93%                 0          1,309              24,686
Participant Support                73,000**                89,022              73,703           83%             3,084                             85,937    4
Materials & Supplies                                               0                                                0                                 0
Printing &
Publications                        2,915                      65                      0          0.                0                                65
Consultant Services               56,000                    8,461               7,610           90%                 0                              8,461
Computer Services                   3,300                     550                 250           45%                 0                               550
Subawards                        163,185**               224,084              224,084           100%                0                            224,084
Other                             31,100                   34,861              29,657           85%                 0          3,944              30,917
         Totals                 $608,441                $614,490             $591,011           96%           $43,547         $5,253            $565,690


Award Overrun                                            $(6,050) Award Overrun - difference between general ledger and FCTR
Amount Claimed per FCTR                                 $608,440
                                                                                       Total
                                                                                    Questioned
                                                                                       Costs           $48,800
** In a letter dated 1/28/2003 NSF allowed $42,600 to be redirected from participant support costs to subawards. The amounts
shown have been revised to take the $42,600 shift into account.


Explanatory Notes (see Appendix 2 for a detailed list of questionable transactions)
1) The unsupported amounts are the result of no, or inadequate, documentation provided. See Appendix 3.
2) The questioned amount of $2,400 is for housing allowances and personal living expenses paid to the CUAHSI executive director
3) The questioned fringe costs consists of two parts:
                       a) $4,960 of this amount is for three payments to Executive Director housing allowances and personal living expenses
                       b) The remaining amount of $33,102 is for excess fringe charged to NSF due to an erroneous calculation of the fringe costs
                       during June 2002 through November 2003 (see Appendix 1 for more information);
4) The questioned amount consists of two airfares using a foreign flag carrier without justification, one for $1,128 and the other for $1,957
(see Appendix 2 for a detailed list of questioned transactions).




                                                                                 14
Schedule B
                                                    National Science Foundation Office of Inspector General
                                    CUAHSI (Consortium of Universities for the Advancement of Hydrologic Sciences, Inc)
             Review of Cost Claimed Under NSF Award EAR-0326064 (aka the Core Award) for the period (June 1, 2002 - December 31, 2004)


                                                                                                      Results of Audit
                                                                                                                                         Audit
                                           Incurred                                              Amount           Unsupported        Recommended
  Budget Category       Award Budget         Costs        Amount Tested       % Tested          Questioned         Amount               Amount              Notes
Salaries & Wages               $538,921       $350,015            $350,015       100%                   $17,440                $0              $332,575       1
Fringe Benefits                 212,869         90,606              90,606       100%                  (11,404)                                 102,011       2
Travel                          112,600         53,118              28,261       53%                        932                 0                52,185       3
Participant Support             289,000        149,512             133,727       89%                      3,563                 0               145,949       4
Materials & Supplies             24,000              0                                                        0                                       0
Printing &
Publications                    110,000         16,007             14,578        91%                          0                                  16,007
Consultant Services              40,000         13,114             11,826         90%                         0                                  13,114
Computer Services                 8,300          1,200                400        33%                          0                                   1,200
Subawards                       675,967        137,573            137,573        100%                         0                                 137,573
Other                           234,653         98,641             75,542        77%                      4,000                 0                94,641       5
         Totals              $2,246,310       $909,786           $842,530        93%                    $14,531                $0              $895,255

Costs Claimed not
Supported by Records                             $6,647                                                 $ 6,647                                               6
Amount Claimed per
FCTR                                          $916,433
                                                                                     Total
                                                                                Questioned
                                                                                     Costs              $21,178


** The claimed costs audited do not include salary or fringe costs incurred (but not paid) for September through December 2004.


Explanatory Notes (see Appendix 2 for a detailed list of questionable transactions)
1) The questioned amount of $17,440 is for housing allowances paid to the CUAHSI executive director, which, even though $6,240 was moved to salary
is still unallowable per OMB Circular A-122, section 19, which states that housing allowances even if an addition to salary, is unallowable.
2) See Appendices 1 and 2 for detailed information on the questionable fringe costs of ($11,404).
3) The questioned amount consists of two items: $575 for a trip charged also to the Planning award, and $357 for use of a foreign flag carrier without justification
4) The questioned amount consists of five items: a) a $363 hotel charge paid by CUAHSI even though participant didn’t request it as it was already paid by Univ.,
b) $1,600 for use of a foreign flag carrier without justification, c) charges of $517 and $975 claimed twice and d) Per diem of $108 paid to a participant who was
local and didn’t request it.
5) The $4,000 was an advance payment to a credit card and was not related to any specific transactions. See appendix 2 for more information.
6) Award Overcharge – the Federal Cash Transaction Report shows costs claimed of $916,433 but CUAHSI’s records only supported $909,786.




                                                                                 15
Schedule C
                                                  National Science Foundation Office of Inspector General
                                    CUAHSI (Consortium of Universities for the Advancement of Hydrologic Sciences, Inc)
                 Review of Cost Claimed Under NSF Award EAR-0412975 (aka the HIS Award) for the period (June 1, 2002 - December 31, 2004)



                                                                          Results of Audit

                                Award        Incurred      Amount                            Amount         Unsupported   Audit Recommended
    Budget Category            Budget          Costs       Tested          %             Questioned          Amounts             Amounts         Notes

Salaries & Wages                  -              -                                             -                                             -
Fringe Benefits                   -              -                                             -                                             -
Travel                         $ 5,000        $ 558         $ 464         83%                  -                             $         558
Participant Support             50,000         6,423         6,052        94%                  -                             $       6,423
Materials & Supplies              -              -                                             -                                             -
Printing & Publications           -              -                                             -                                             -
Consultant Services               -              -                                             -                                             -
Computer Services                 -              -                                             -                                             -
Subawards                         -              -                                             -                                             -
Other                           9,000            -                                             -                                             -
           Totals              $64,000        $6,981        $6,516        93%                  -                             $       6,981


                                                                         Total
                                                                       Questioned
                                                                         Costs                $ 0




                                                                           16
    Appendix 1
                                       Questioned Fringe Benefit Costs

                                           Planning Award Fringe Costs
                                         Actual
                   2002                  Fringe    Claimed Fringe   Questioned Amount               Comments
    June                                    $3,033           $4,887              ($1,854)
    July                                    $2,080           $3,583              ($1,503)
    August                                  $1,168           $4,520              ($3,352)
    September                               $3,344           $4,727              ($1,383)
    October                                 $1,677           $4,898              ($3,222)
    November                                $2,466           $4,175              ($1,709)
    December                                $3,653           $3,766                ($113)
                2002 Totals               $17,420          $30,557              ($13,137)             Note 1

                   2003
    January                                 $3,660              $8,517                 ($4,857)
    February                                $3,610              $9,422                 ($5,811)
    March                                   $5,108              $8,452                 ($3,344)
    April                                   $4,370             $10,323                 ($5,953)
                 Subtotals                 $16,748             $36,714                ($19,966)       Note 2

         Planning Award Totals             $34,168             $67,270                ($33,102)       Note 3

                                             Core Award Fringe Costs
                                         Actual
                   2003                  Fringe    Claimed Fringe    Questioned Amount
    May                                   $13,925            $8,415                 $5,510
    June                                    $2,827           $7,804               ($4,976)
    July                                    $3,135           $4,334               ($1,198)
    August                                  $3,687           $6,083               ($2,396)
    September                               $5,502           $8,506               ($3,003)
    October                                 $4,393           $8,474               ($4,081)
    November                                $5,831         $11,915                ($6,083)            Note 4
           Core Award Totals              $39,301          $55,531               ($16,229)
    AGU Fringe Credit for Excess 2003 fringe                                            $27,633       Note 5
    Over credit to Core Award                                                           $11,405       Note 6

    Questioned Fringe Costs                                                           ($21,698)       Note 7

   Notes
1) The questioned 2002 fringe costs represent the difference between the actual fringe costs
   and the amount claimed. The claimed amount was too high because AGU, who does CUAHSI's
   payroll used its own rate and did not reconcile it to CUAHSI's actual costs at year end.
2) Questioned excess fringe costs on Planning Award of $19,966 for 2003. This represents the $11,404 wrongly
   credited to the Core award (see Note 6) plus excess fringe of $8,562 that AGU overlooked in its computation.
3) The total questioned amount related to the Planning award includes 2002 and 2003.



                                                       17
4) The claimed amount of $11,915 is from the general ledger, the actual AGU invoice shows
   $10,904. So, $1,010 of the excess amount of $6,084 is due to an error by CUAHSI.
5) AGU was notified of excess fringe costs for 2003. In response they computed a credit of
   $27,633 to correct the overcharge and credited this amount to CUAHSI who passed it on to NSF. However,
   CUAHSI incorrectly applied the entire $27,633 to the Core award, which over credited the Core award by
   $11,404. If the $11,404 was applied to the Planning award, it would still be too low by $8,562 (see note 2 above).
6) CUAHSI incorrectly applied the entire credit of $27,633 to the Core award. In order to correct for this,
   we recommend an increase of $11,404, which is the difference between the fringe credit of $27,633 and the
   actual ($16,230) of excess fringe claimed. This amount should have credited to the Planning award.
7) The total fringe costs questioned are all on the Planning award and consists of $13,137 of 2002 excess fringe)
   and $8,562 of 2003 excess fringe (see notes 2 and 5).




                                                        18
Appendix 2
                                                     List of Questioned Transactions - Sorted by Type of Cost and by Award
I. Questioned Salary Costs

  Award          Date                     Trans Description                 Claimed Amount      Allowable Amount   Questioned Amount                      Comments
   Plan         4/15/03      xxxxxxxxxxxxx                                              5,683                5,083                 600 Includes $600 of per diem for Exec. Director
   Plan         4/30/03      xxxxxxxxxxxxx                                              5,683                5,083                 600 Includes $600 of per diem for Exec. Director
                                                                                                                                       Amount includes $1200 for Exec. Director's per
   Plan         4/28/03      April Payroll                                             25,843               24,643               1,200 diem. $24,642.74 verified to invoice.
                                             Salary Subtotal - Plan                                                         $    2,400

   Core         5/15/03      xxxxxxxxxxxxx                                              5,683                  5,083                  600 Includes $600 of per diem for Exec. Director
   Core         5/31/03      Xxxxxxxxxxxxx                                              5,295                  4,655                  640 Includes $640 of per diem for Exec. Director
                                                                                                                                          Amount includes $1240 for Exec. Director's per
   Core         5/30/03      May Payroll                                               21,684                20,444                 1,240 diem. $20,444.38 verified to invoice.
                                                                                                                                          Amount includes $1240 for Exec. Director's per
   Core        6/31/2003     June Payroll                                              19,481                18,241                 1,240 diem. $18,241.70 verified to invoice.
   Core         9/15/03      Xxxxxxxxxxxxx                                              7,065                 5,585                 1,480 Includes $1,480 per diem for Exec. Director
   Core         9/30/03      Xxxxxxxxxxxxx                                              5,487                 4,887                   600 Includes $600 per diem for Exec. Director
                             American Geophysical Union-Sept Salary (9/15                                                                 Amount includes $2080 for Exec. Director's per
   Core         9/30/03      &9/30)                                                    22,342                20,262                 2,080 diem. $20,261.58 verified to invoice.
   Core        10/15/03      Xxxxxxxxxxxxx                                              4,850                 3,370                 1,480 Includes $1,480 per diem for Exec. Director
   Core        10/31/03      Xxxxxxxxxxxxx                                              6,182                 5,582                   600 Includes $600 per diem for Exec. Director
                                                                                                                                          Amount includes $1240 for Exec. Director's per
   Core        10/31/03      American Geophysical Union- October Payroll               21,310                20,070                 1,240 diem. $20,070.70 verified to invoice.
                                                                                                                                          Includes $6,240 "salary" added to Exec. Director in
   Core        12/15/03      Xxxxxxxxxxxxx                                             14,003                  7,763                6,240 offset for per diem credit above.
                                        Salary Subtotal - Core                                                                 $   17,440
                                         Overall Salary Total                                                                  $   19,840

II. Questioned Fringe Benefit Costs

  Award          Date                         Trans Description             Claimed Amount      Allowable Amount    Questioned Amount                        Comments
   Plan         6/30/02      Trs June fringe % salaries                                 4,887                 3,033               1,854
   Plan         7/31/02      Trsf July Payroll fringe                                   3,583                 2,080               1,503
   Plan         8/31/02      August Payroll fringe                                      4,520                 1,168               3,352
   Plan         9/30/02      Sept Payroll fringe                                        4,727                 3,344               1,383




                                                                                          19
   Plan        10/31/02        Oct Payroll fringe                                           4,898                   1,677                 3,222
   Plan        11/30/02        Nov Payroll fringe                                           4,175                   2,466                 1,709
   Plan        12/31/02        Dec Payroll fringe                                           3,766                   3,653                   113
   Plan         4/28/03        April Fringe                                                10,323                   4,370                 5,953
   Plan                        March Housing Allowance                                      1,240                       0                 1,240 Unallowable per diem costs
   Plan                        AGU-March 2003 Fringe                                        8,452                   5,108                 3,344
                                                                                                                                                Claimed amount consisted $8,517.14 (Jan),
                                                                                                                                                $9,421.58 (Feb) and also Includes Per Diem
                                                                                                                                                charges of $3,720 ($3,000 for Jan 2003 and $720
   Plan                        Jan-Feb Fringe                                              21,659                   7,270                14,389 for Feb 2003)
                                            Fringe Subtotal - Plan                                                                   $   38,062

   Core         5/30/03        May Fringe                                                   8,415                  13,925                (5,510)
   Core         7/30/03        July Fringe                                                  4,334                   3,135                  1,198
                               American Geophysical Union-August Fringe
   Core         8/31/03        Benefits                                                     6,083                   3,687                  2,396
                               American Geophysical Union-September Fringe
   Core         9/30/03        Benefits                                                     8,506                   5,502                  3,003
   Core        10/31/03        American Geophysical Union- October Fringe                   8,474                   4,393                  4,081
                                                                                                                                                 Claimed amount per invoice dated 12/15/03 =
   Core        11/30/03        Nov Fringe                                                  11,915                   5,831                  6,083 $10,904.19
                                                                                                                                                 This amount is incorrect as it was computed with
                                                                                                                                                 the wrong amounts for December and November
   Core        12/1/04         AGU credit to CUAHSI                                       (27,633)                (27,633)              (27,633) 2003. It appears it should be $35,183.77
   Core       6/31/2003        June Fringe                                                   7,804                   2,827                 4,976
                                            Fringe Subtotal - Core                                                                     ($11,405)
                                             Overall Fringe Total                                                                    $    26,658

III. Questioned Travel Costs

                 Date                          Trans Description               Amount Claimed         Allowable Amount       Questioned Amount                      Comments
                               Delta/Orbitz( airfare for V. Faulkner, Santa
   Core         6/16/03        Barbara, CA)                                           $       575 $           -                      $      575 (4) Already billed to the planning award
                                                                                                                                                (6) Use of a foreign flag air carrier (Lufthansa);
                                                                                                                                                Documented by a receipt, but not a Award Expense
                               Fleet Business Services - R.Hooper - Airfare;                                                                    Documentation Form; no certification to allow use
   Core         2/29/04        HEPEX meeting; Reading, England                        $       357 $           -                      $      357of foreign carrier
                                              Travel Total - Core                                                                    $      932




                                                                                              20
Questioned Participant Support Costs (PSC)

 Award             Date               Transaction Description                 Amount Claimed     Allowable Amount       Questioned Amount                        Comments
                                                                                                                                           (4)Flew on KLM/Royal Dutch airlines (Non-US
                                                                                                                                           flag carrier) International travel with no prior
                                                                                                                                           approval; exchanged 939.76EUR for $1127.71USD
                                                                                                                                           (a rate of $1.20USD/Euro) on May 31,2004, when
                           xxxxxxxxxxxxx - Reimbursement for the Vision                                                                    OANDA interback exchange rate was
   Plan        8/10/04     Paper meeting ( June1-5)                                      1,657                  530                  1,128 $1.2243USD/Euro, for $1150.55
                                                                                                                                           (5) Flew on Qantas (non-US air carrier); Used
                                                                                                                                           exchange rate of $.69 US to $1 AUS for 15 June
                                                                                                                                           2004, when OANDA interbank exchange rate was
                           xxxxxxxxxxxxx - Reimbursement for Vision Paper                                                                  0.68680; lodging was above per diem, but it was
   Plan        8/10/04     meeting ( June 14-16)                                         2,543                  586                  1,957 approved beforehand
                                          Subtotal PSC - Plan                                                                   $    3,084 Difference of $1 due to rounding

                                                                                                                                           CUAHSI paid participant Grigg's hotel, even
                                                                                                                                           though Grigg’s didn’t request reimbursement
                           xxxxxxxxxxxxx - Reimb Synthesis meeting, Santa                                                                  because he stated the hotel was already paid for by
   Core   7/13/03          Barbara, CA (July 9-13)                                       1,320                  957                    363 NCEAS.
                                                                                                                                           (15) Used an exchange rate of .724 USD/AUS
                                                                                                                                           Dollar, for 2,977.86 AUS; OANDA interbank
                                                                                                                                           exchange rate on 6/5/04 was .6962; cash rate (+4%)
                                                                                                                                           was .72405; Based on this exchange rate,
                                                                                                                                           questioned $1,600.37 for the plane ticket; no ticket
                                                                                                                                           was provided, but the tax invoice for the ticket,
                                                                                                                                           which was provided, uses a flight number for
                           xxxxxxxxxxxxx - Reimb for Vision paper meeting                                                                  Qantas ("QF 93"), which is not a US flag air
   Core   6/5/04           Penn State Univ.; June1-5                                     2,689                1,089                  1,600 carrier.
                           xxxxxxxxxxxxx - Reimbursement for Vision Paper                                                                  Double reimbursement: once on each of two
   Core   6/10/04          meeting, Columbia Univ.; June9-10                               517                      0                  517 FCTRs
                           Christopher Duffy - Reimb. for Vision Paper, Los                                                                (18) Double reimbursement: once on each of two
   Core   6/30/04          Alamos National Laboratory, June29-30                           975                      0                  975 FCTRs
                                                                                                                                           CUAHSI paid $107.50 in per diem to a participant
                                                                                                                                           even though the participant didn’t request it. The
                                                                                                                                           participant was hosting the meeting at his home
                           xxxxxxxxxxxxx - Reimb for Vision Paper meeting                                                                  institution, and NSF’s GPM 618.2 specifies that
   Core   7/15/04          ( July 14-15)                                                   410                  303                    108 does not allow per diem in this case anyway.
                                         Subtotal PSC - Core                                                                    $    3,563
                                          Overall PSC Total                                                                     $    6,647




                                                                                           21
Questioned Other Direct Costs (ODCs)
                                                                                                 Amount is a payment to a credit card that is not tied
                          Fleet Business Services - Advance Payment to                           to specific transactions. No support provided,
Core          12/23/04    credit card-online                             $   4,000   $     4,000 outstanding since 11/29/05
                          ODCs Total - Core                                          $     4,000

                          Subtotal Questioned Transactions - Plan                        $43,547
                          Subtotal Questioned Transactions - Core                        $14,531
                            Total Questioned Transactions                                $58,078

                          Over Claim on Core Award                                        $6,647
                            Total Questioned Costs                                       $64,725




                                                                              22
Appendix 3
                              List of Unsupported Transactions

                                                                Claimed   Supported  Unsupported
Award    Budget Category      Date        Trans Description     Amount     Amount      Amount
 Plan    Other Direct Cost   Dec-02 Annual Meeting Facilities       $850                      $850
 Plan    Other Direct Cost   Dec-02 Dec exp AP#60 AT&T             $3,094                   $3,094
 Plan         Travel         Dec-02 Annual Meeting travel          $1,309         $0        $1,309
                                                Totals             $5,253         $0        $5,253




                                                 23
                                                                                                                              Appendix 4




                                                                    universities allied for water research




                                                                     June 27,2006

  James J. Noeth
  Senior Audit Manager
  Office of Inspector General
  National Science Foundation
  420 1 Wilson Blvd.
  Arlington, VA 22230


  Dear Mr. Noeth:

  Thank you for your letter of June 19, and the related draft audit report. We thank you for
  the professional conduct, spirit of cooperation and, most of all, the patience exhibited by
  James Berry Schneck and his team. We learned a lot during the course of this audit. I
  trust that the lessons learned are self evident in the below responses to the audit
  comments.

  Before addressing the various recommendations, 1first would like to provide a general
  comment related to the body of the report: At the top of page 5, there is a sentence that
  says the DGA notified CUAHSI in July and December 2003 that its accounting policies
  and procedures were deficient. This is certainly true, but the statement seems to me one-
  sided, and therefore misleading. At least for the record, I would like to add that we
  responded immediately to the July letter by requesting advice from the auditors who had
  just delivered our 2002 financial statements. They helped us establish formal accounting
  policies and procedures, which we then provided, along with a formal response to the
  letter of July, to the DGA in August 2003. We also responded in January 2004 to the
  issues rais~dduring the DGA's site visit of November 2003. In both cases, we were as
  responsive as we knew how to be (establishing policies and procedures, sending our
  Business Manager to OMB Circular classes, adjusting our chart of accounts so as to
   group expenses by grant, etc.), but we got no direct response to either of our responses.
  In fact, it was not until now, with this draft report, that we received a comprehensive
  response.

   I also have some factual corrections/c~arifications
                                                     that I would like to suggest to the text
   of the report:

          At the bottom of page 4 and top of page 5 are 3 sentences related to our receipt of the
          2003 A-133 audit report, with various cites from that report. That report was not
          received by us until late December 2004. Consequently, our ability to positively
          respond to that report was necessarily limited to the year 2005, a period outside of the

                                                                                                                                           Page 24
                             Consortium of Universities For the Advancement of Hydrologic Science, Inc.
qnnn ~ I - * : A -   A , , ~ . . , , ~ ~,I\AI   \AI~~!.;--L-   nr   qnnnn . - I .   qnq 7 7 7 7 - A X   r   nnfi   ---   n-   *
                                                                                                Appendix 4




    scope of the IG's audit. We therefore request that these 3 sentences be deleted.
    Should you opt to instead retain these sentences, then we would request that after
    "audit management letter", the following phrase be added: ",received by CUAHSI
    management in December 2004", so that the sentence would read, in part, " . . .
    previously cited in its OMB Circulq A-133 audit management letter, received by
    CUAHSI management in December 2004."

a   The paragraph spanning the bottom of page 5 and the top of page 6, includes a couple
    of false conclusions. Specifically:
        o The first two sentences state that CUAHSI lacked the ability to manage its
            awards, and therefore we overspent one grant and underspent the other. In
            fact, we believe these were the same costs, and that we had verbal
            authorization to move the expenses from one grant to the other. That is, the
            movement was deliberate, not the result of some inability to manage.
        o The next two sentences say that because we did not routinely compare budget
            to actual expenses, we had a significant overrun in subaward expense. That is
            not true; that overrun was deliberate, and formally requested and approved
            well in advance.
    I would like to see some clarification or corrections to the way these facts are laid out.

    On page 6, third paragraph, last sentence, I would like to remove the words "because
    it has yet to correct", and replace them with "pending a demonstration of having since
    corrected", so that the sentence would read: "CUAHSI remains on special payments
    pending a demonstration of having since 'corrected its grants accounting system
    deficiencies."

    Also on page 6 , last sentence,' I would like to insert after the word "transactions" the
    following phrase: "(all incurred in 2002 during which time AGU continued to
    maintain the books and records for CUAHSI)", so that the sentence would read, in
    part, "Although CUAHSI eventually provided source documentation for all but 5
    transactions (all incurred in 2002 during which time AGU continued to maintain the
    books..-and records for CUAHSI), . . . "

a   On page 7, I would like to insert the following phrase in front of the third bullet at the
    top of the page, and thus make that bullet a one-sentence paragraph: "And, because
    AGU did not adequately track supporting documentation for CUAHSI-claimed costs
    in 2002,", so that the one-sentence paragraph would read, in part: "And, because
    AGU did not adequately track supporting documentation for CUAHSI-claimed costs
    in 2002, CUAHSI did not provide documentation for . . .".

    On page 8, third bullet, second sentence, I would like to replace the word "already"
    with "otherwise", so that the sentence would read, in part, " . . .likely related to
    transactions otherwise claimed . . . ".

Regarding the audit recommendations, our responses are as follows:
                                                                                                 Page 25
                                         Page 2 of 8
                                                                                      Appendix 4




Recommendation 1

Agree.

The accounting system in use during the years 2003 and 2004 (Peachtree) was replaced
January 1,2005 with the higher level Solomon system. That system is being currently
used to provide financial results by project, including the detail of expenses by
award/award year, and including budgeted expenses by awardlaward year, and including
budget to actual reporting by period and for inception to date

See sample reports, attached.

Recommendation 2

Agree.

                      A with 25 years experience in federally funded nonprofits (see
resume attached), was hired on a contract basis in 2                          was hired as
a full-time Controller in February of this year (replac                      s Manager).
                 was hired as a full-time Administrative Assistant/Accounting Assistant in
June of this year (replacing the former Administrative Assistant). As these latter two
individuals are fully trained and integrated into CUAHSI, the need for Mr. Thrasher's
specialized skills is declining; we expect him to remain with us indefinitely, however, but
in some limited capacity.

Recommendation 3

Agree. More particularly:

With respect to the over-claimed costs of $6,647 on the Core award, the draft audit report
on Schedule A cites a Planning award overrun of $6,050. We believe that both the
$6,647 and the $6,050 are in fact the same expenses (for the Vision Paper), and that we
had verbal a@.horization to take the overage for the Planning award and charge it instead
to the Core award. We look forward to a discussion with the Directors of DIAS and
DGA to resolve this issue.

With respect to "duplicate" charges of $575 and $1,492, we respectfully submit the
following:

    During the course of the audit, we were provided by the audit team with a copy of a
    spreadsheet analysis entitled "cash Reconciliation of NSF funds paid to CUAHSI
    from July 2002 Through December 3 1,2004 . . . with Total Costs Compared to the
    Total per the FCTR". That spreadsheet states as its purpose 'To reconcile the cash
    paid to CUAHSI by NSF to CUAHSI's records", and includes in its conclusion " . . .
                                                                                              Page 26
                                        Page 3 of 8
  verified that the costs claimed per CUAHSI's general ledger is not significantly
  different from the costs claimed per the FCTR" and "when comparing cash on hand
  per the FCTR to the cash on hand [per the books], the difference was only $77.07.
  Thus, we will move ahead . ." . That is, the audit team was able to demonstrate to
  itself that total Federal cash in and out of the books tied to Federal cash in and out on
  the FCTR's.

   Based on discussions with theaudit team during the course of the audit, the above
   exercise was employed because the 270's submitted by CUAHSI during the period of
   audit were poorly supported and full of errors; consequently, a decision was made
   that the shortest route to demonstrating the components of Federal reimbursements
   received was to tie cash activity per the books to cash activity per the FCTR's.

   As noted on page 3 of the audit report, the last accomplished objective of the audit
   was that the audit team "verified that expenditures in CUAHSI's accounting records.
   and financial reports supported total award expenditures reported to NSF in its
   Federal Cash Transactions Report as of December 3 1,2004." So, again, cash out per
   the FCTR's is what was tied to the books; so cash out per the books thus became the
   auditable universe for testing of propriety, support, etc.

   Upon our examination of these"dup1icate" charges, we find that each amount was
   disbursed only once (an EFT to Orbitz for $575.50, check 1254 to Salas, including      .'.


   the $515.15, and check 1260 to Duffy, includhg the $975.44). So, it would appear .
   that these amounts were only paid out once, and, since cash out per the books ties to
   cash out per the FCTR's, these amounts could not have been twice
   chargedJreimbursed tolfrom the NSF.

   Further, we have ourselves employed the same methodology as employed by the
   audit team in preparing the FCTR's for fourth quarter 2005 and first quarter 2006,
   and we can demonstrate, if necessary, that all reimbursed amounts per the FCTR's
   since inception tie within an immaterial difference to cash disbursed per the books.
   As between cash out per the books and cash out per the FCTR's, there are no
   differences, and it is cash out that the audit team audited. Cash out is cash out.
   None of these amounts were paid out twice, so there cannot be any "duplicate"
   charges.

   Based on these facts, we respectfully request of the Directors of DIAS and DGA that
   these questioned costs be resolved in CUAHSI's favor.

With respect to "unsupported" 2002 costs of $7,886, attached is appropriate support for
the amounts of $1,539; $3,094 and $1,094, all late received from the AGU. AGU
continues to search for support for the amounts of $850 and $1,309.

With respect to "questionable" costs of $58,019:                                                Page 27


                                       Page 4 of 8
                                                                                    Appendix 4




Regarding the questioned housing allowance and living expense costs of $24,800, we
respectfully submit the following:

   o We stated in a letter to                           25,2003 that "a housing
     allowance was                                while he was serving in a
     temporary                                                  We had discussed
     this with NSF staff and believe it to be permissible for temporary employees."
     I am not aware of ever having received a written response to this letter, but
     our positionhas not changed: we continue to believe that we had NSF
     permission to provide the housing allowance.

   o In the attached letter of April 7,2004 orf-                    our former
     Executive Director, to m v t a t e s that because of the lack of
     qualified candidates for the position of CUAHSI Executive Director, a
     decision was made in late 2002 to fill the position with a temporary out-of-
     state hire, and offer to provide to that hire, among other things, a housing
     allowance to help defray the costs of having to reside temporarily in
     Washington, DC., thus doing what was necessary to make the position
     attractive to that candidate. Without that offer, the single viable candidate for
     the nosition would likelv have declined the nosition. The letter makes it clear
     that-           sought thk assistance-o                and
                                                               d
     the SF in ormulating the offer, and believed that he ha therr consen o do
      so, and that such an aliowance was "in full accord with the existing NSF
     policies for similar benefits for their (NSF) rotator positions".

    o The temporary nature of the hire is evidenced by the attached
      Intergovernmental Personnel Agreement for the period January through July
      2003, during which.timethe hire remained an employee of the US Geologic
      Survey whilehe was "lent" to CUAHSI; that agreement was subsequently
      extended to December 2003.

    o The temporary nature of the hire is further evidenced by the attached offer
      letter of December 27,2002 from 0-                  myself.'

    o Thus, during this prolonged temporary hire period -elieved               he was
      emulating the NSF's "rotator" policy, and that this was a reasonable,
                thing to do; certainly, andin spite of a continuing dialogue, no one
      disavowed him of this notion.

    o Further, even if we had not been operating under such a belief, OMB Circular
      A-122, Attachment B, section 20.a. says in part "housing allowances . . . for
      the organization's officers are unallowable9< The attached letters to me from

     9              CUAHSI chair at the time, of May 3 1,2003 and December 18,
      2003, c ear y demonstrate that I was not an oEcer of CUAHSI until January
      1,2004. Since all of the questioned housing allowance expenses were
                                                                                         Page 28
                                   Page 5 of 8
                                                                                 Appendix 4



       incurred in 2003, section 20 would seem to be moot. Nor am I aware of any
       other provision in A-122 that would prohibit a housing allowance for a
       temporary employee working away from home.

   o As a final point of fact, it is not clear to me that the amount here questioned,
  ~~QO,iscolrect~takinga~loselooka~theauditte~a~~ula€i~~
     that amount, I see that it includes $6,240 otherwise included in salary expense
     from December 2003. But I also note that, on page 7 of the draft report,
     second bullet from the bottom of the page, there is mention of a like credit of
     $6,240. I do not see that the $24,800 reflects that credit (or that the credit is
     reflected anywhere else), and it thus appears to me that the questioned amount
     is properly $24,800 - $6,240 = $18,560.

Based on these facts and beliefs, we respectfully request of the directors of DIAS and
DGA that these questioned costs be resolved in CUAHS17sfavor.

We concur that the AGU apparently overbilled CUAHSI for excess fringe benefits,
and that CUAHSI thus inadvertently overbilled the NSF, and that such-billings should
therefore be disallowed. The total amount cited in the report is $21,698; however,
that amount includes an amount of $6,083 (see Appendix 2 tothe report) which
appears to be incorrect. Referring to our argument above over the issue of
"duplicate" invoices, the audit team necessarily audited cash out. Given that,
Appendix 2.says that .11/30/03Nov fringe claimed, per an invoice from AGU dated
 12/15/03, was $11,914.56, versus an allowable amount of $5,831.20, for a questioned
cost of $6,083.36. In the general ledger and the audit team's related reconciliation of
the FCTR's to general ledger cash, we see that $1 1,914.56 is treated as the amount
actually paid out. But, when we dig deeper, we see that the amount actually paid was
$10,904.19 (check 1302 of 12/22/04 for $323,800.94 to AGU). The audit team's
own note says "claimed amount per invoice dated 12/15/03 = $10,904.19". Using
$10,904.19, the questioned .amountwould equal $10,904.19 - $5,831.2 = $5,072.99,
or an amount that is $1,010.37 less in questioned costs. Accordingly, it seems to us
that the overbilling amounts to $21,698 - $1,010 = $20,688 and this is the amount that
we think should be agreed upon.

With respect to airfare in excess of coach class in the amount of $2,009, we
respectfully submit the attached documents in support of the fares having been paid
for coach, not business class (see handwritten letter from a United Air employee - B
or Y class equal coach; C and F class equal business, and see a printout from
wikipedia indicating the same, and see a ticket stub with the Y class ,indication).
Accordingly, we request of the directors of DIAS and DGA that these questioned
costs be resolved in CUAHSI's favor.

We concur that foreign flag travel costs of $3,084; $1,600 and $357 did not meet
reimbursable criteria, and should thus be disallowed.



                                    Page 6 of 8
                                                                                        Appendix 4




   We concur that host participant support costs of $363 and $108 did not meet
   reimbursable criteria, and should thus be disallowed. The credit card deposit of
   $4,000 was also inappropriately billed, and should also be disallowed.


Recommendation 4

Agree.

We appreciate the need to keep us on special payments until such time as the directors of
DIAS and DGA are satisfied with the appropriateness of our responses to the
recommendations herein addressed. We believe that our responses are appropriate and     '
demonstrable, and we look forward to an expedited cessation of the special payments
restrictions.

Recommendation 5



Concurrent with our implementation of the Solomon accounting system in 2005 (see
Recommendation 1, above), we have ensured that the general ledger detail clearly cross-
references to source documents to ensure ease of document retrieval.

See sample reports, attached.

Recommendation 6

Agree.

All source documents are properly filed, with appropriate cross-references to general
ledger detail.

Recommendation 7

Agree.

Present accounting staff are familiar with OMB Circular A-122 as well as the Grant
General Conditions and Grant Policy Manual of the NSF, and thus readily identify
unallowable costs and exclude such costs from reimbursement requests. Other staff
members have also been trained to be aware of and recognize such costs. Such costs are
few in number and amount, and are incurred only with care as we have few resources to
otherwise support such costs.

See attached Travel Reimbursement Policy


                                                                                            Page 30
                                       Page 7 of 8
Recommendation 8

Agree.'

Accounting personnel have been trained in federal cost principles and administrative
requirements (see also response to Recommendation 2, above), and have instructed other
staff as needed.


I trust that you and the directors of DIAS and DGA will see that we have taken the
weaknesses reported to heart, and accepted them in the positive spirit we believe was
intended. We have tried to be pro-active in our responses, and incorporate them into a
philosophy of constant improvement. If you have any questions or comments, please let
me know. Otherwise, we look forward to receiving a final report from your office, and a
subsequent meeting with the directors of the NSF's Division of Institutional and Award
Support, and Division of Grants and Agreements.


Very truly yoys,



              .-

Executive Director




                                                                                   Page 31



                                      Page 8 of 8
